NO. 19-_____

In the
Supreme Court of the United States

MILES CHRISTIAN-HART,

Petitioner,
v.

WELLS FARGO BANK, N.A.,

Respondent.

On Petition for a Writ of Certiorari to the
District Court of Appeal, Second District, State of Florida
PETITION FOR A WRIT OF CERTIORARI

STEVEN A. FOX

COUNSEL FOR PETITIONER

LAW OFFICE OF STEVEN A. FOX

4634 HIGEL AVE
SARASOTA, FL 34242
(941) 225-3676
STALANFOX@MSN.COM

JUNE 7, 2019
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

i
QUESTION PRESENTED
On April 7, 2015, in a frenzied Florida rocket docket at which 50-60 contested and uncontested cases
presented for trial, a judgment of foreclosure was
entered against Petitioner Hart in favor of Respondent
Wells Fargo for a loan which never closed, for which
the note and mortgage Hart had signed in anticipation
the loan would close were recorded in error, for which
none of the payees listed on the proposed HUD-1
were paid and for which Wells Fargo perpetrated a
fraud on the court to deceive the court into concluding
the loan had been funded. In this trial, Wells Fargo
had offered up deceptive releases to show the loan
was funded, never disclosed on Wells Fargo’s exhibit
list. One was a release Wells Fargo knew had been
rescinded as issued in error. Another was a release
Wells Fargo knew was unrelated to this purported
loan. On Wells Fargo’s exhibit list, it had disclosed
the note and mortgage as documents it intended to
introduce at trial as Florida law requires that a judgment of foreclosure be supported at trial by competent, substantial evidence, and that said note and
mortgage must be introduced and admitted at trial.
In this case, neither were introduced much less admitted at trial and the only note and mortgage in the
trial record is for a loan between a Phyllis Savage
and Bank of America. Hart filed a motion for a new
trial and his new attorney filed an amended motion
for new trial and a motion for leave to file omitted
counterclaim. After the successor judge initially agreed
to hold a hearing on Hart’s pro se motion, the court
denied all motions and abruptly cancelled the hearing
denying Hart an opportunity to be heard. The question presented is whether due process can abide a

ii
system in which, as will be seen, one level of due
process is accorded the bank and another level of due
process is accorded the borrower.

iii
PARTIES TO THE PROCEEDING
Petitioner
● Miles Christian-Hart, was the defendant in the trial

court in the Circuit Court of the Twelfth Judicial
Circuit, in and for Sarasota County, Florida, and
the appellant before the District Court of Appeal,
Second District, State of Florida.
Respondent
● Wells Fargo Bank, N.A., was the plaintiff in the trial

court and the appellee before the District Court of
Appeal, Second District, State of Florida.

iv
LIST OF PROCEEDINGS
Circuit Court of the Twelfth Judicial Circuit In and
For Sarasota County, Florida
Case Number: 2010 CA 012116 NC

Wells Fargo Bank, N.A., Plaintiff v.
Miles Christian Hart 1, et al., Defendant2
Order Dates:
Orders of Judge Donnellan
Final Judgment of Foreclosure: April 7, 2015
Orders of Judge Iten
Denying Motion for New Trial:
June 8, 2016
Denying Amended Motion for New Trial:
June 8, 2016
Denying Motion for Leave to File Omitted
Counterclaim: June 9, 2016

1 Other than the current circuit court judge (2019), the circuit
court judges have spelled “Christian Hart” without a hyphen,
but the 2nd DCA spells his name “Christian-Hart”. To avoid
confusion, we refer to the Petitioner as “Hart” in this petition.
2 The complete caption for the original foreclosure judgment
was Wells Fargo Bank, N.A., Plaintiff v. Miles Christian Hart; the
Unknown Spouse of Miles Christian Hart; Sarasota County;
Sarasota Springs Community Association Inc.; Any and All Un-

known Parties Claiming Through, Under, and Against the Herein
Named Individual Defendant(s) Who Are Not Known Be Dead
or Alive, Whether Said Unknown Party May Claim an Interest
As Spouses, Heirs, Devisees, Grantees, or Other Claimants; Tenant
#1, Tenant #2, Tenant #3 and Tenant #4 the Names Being
Fictitious to Account for Parties in Possession, Defendants.

v
Judge Iten entered an order of disqualification upon
himself on June 14, 2016 and was replaced by Judge
Mercurio.
Orders of Judge Mercurio
Denying Motion for Reconsideration:
February 23, 2017
Denying Motion to Clarify Ruling of
Predecessor Judge: March 1, 2017
Denying Motion to Refer to Law Enforcement:
March 2, 2017
___________________
Florida Second District Court of Appeal
Case Numbers: 2D16-2875, 2D17-1110
(Consolidated)3, 4
Miles Christian-Hart, et al., Appellant v.
Wells Fargo Bank, N.A., Appellee
Per Curiam Order: September 12, 2018
Rehearing Denial Date: January 8, 2019

3 The appeals of Judge Donnellan’s judgment of foreclosure and
Judge Iten’s orders are under Florida 2nd DCA Case Number
2D16-2875. The appeals of Judge Mercurio’s orders are under
Florida 2nd DCA Case Number 2D17-1110.
4 There is currently a collateral procedure pending in the Florida
Supreme Court, Miles Christian-Hart, Petitioner, v. Wells Fargo
Bank, N.A., Respondent (SC19-481), which is a Petition for Writ
of Mandamus requesting the Florida Supreme Court to order
the Second DCA to recall, re-issue, and re-serve the mandate
and per curiam opinion to the proper parties and counsel.

vi
TABLE OF CONTENTS
Page
QUESTION PRESENTED .......................................... i
PARTIES TO THE PROCEEDING .......................... iii
LIST OF PROCEEDINGS ......................................... iv
TABLE OF AUTHORITIES .................................... viii
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW ................................................... 1
JURISDICTION.......................................................... 1
CONSTITUTIONAL PROVISION INVOLVED ........ 2
STATEMENT OF THE CASE .................................... 2
REASONS FOR GRANTING THE PETITION ....... 32
CONCLUSION.......................................................... 34
APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Per Curiam Order of the District Court of Appeal
of Florida Second District
(September 12, 2018).......................................... 1a
Order Denying Defendant’s Motion to Refer
Incident to Law Enforcement and to Further
Amend 2/23/17 Order (March 2, 2017) .............. 2a
Order on Defendant’s Motion to Clarify and Order
Affirming Rulings Entered by Predecessor
Judge (March 1, 2017) ........................................ 4a
Order of the Circuit Court Denying Motion for
Reconsideration (February 23, 2017) ............... 7a

vii
TABLE OF CONTENTS – Continued
Page

Order Denying Defendant’s Motion for Leave to
File Omitted Counterclaim
(June 9, 2016) ................................................... 10a
Amended Order Denying Defendant’s Motion for
New Trial (June 8, 2016).................................. 12a
Order Denying Defendant’s Motion for New Trial
(June 8, 2016) ................................................... 14a
Uniform Final Judgment of Mortgage Foreclosure
(April 7, 2015) ................................................... 16a
Amended Order of the District Court of Appeal
Denying Motion for Rehearing
(January 8, 2019).............................................. 25a

viii
TABLE OF AUTHORITIES
TABLE OF AUTHORITIES
CASES

Page

BAC Home Loans v. Parrish,

146 So.3d 526 (Fla. 1st DCA 2014) ................... 18

Beaumont v. Bank of New York Mellon,

81 So.3d 533 (Fla. 5th DCA 2012) ...................... 6

Brinkley v. County of Flagler,

769 So.2d 468 (Fla. 5th DCA 2000) .................... 9

Bull v. Jacksonville Fed. Sav. & Loan,

576 So.2d 755 (Fla. 1st DCA 1991) ..................... 7

Chiu v. Wells Fargo Bank,

242 So.3d 461 (Fla. 3d DCA 2018) ...................... 8

Davis v. State,

953 So.2d 612 (Fla. 2d DCA 2007) .................... 33

DiGiovanni v. Deutsche Bank National Trust
Company, 226 So.3d 984

(Fla. 2d DCA 2017) .............................................. 7

Fair v. Kaufman,

647 So.2d 167 (Fla. 2d DCA 1994) ...................... 5

Figueredo v. Bank Esposito Santo,

537 So.2d 1113 (Fla. 3d DCA 1989) .................... 5

Figueroa v. Federal Nat’l. Mortg. Ass’n,

180 So.3d 1110 (Fla. 5th DCA 2015) .................. 6

Florida Public Service Comm’n v. Pruitt,
Humphrees, Powers & Munroe
Advertising Agency, Inc, 587 So.2d 561

(1st DCA 1991) .................................................. 26

ix
TABLE OF AUTHORITIES—Continued
Page

Focht v. Wells Fargo Bank,

124 So.3d 308 (Fla. 2d DCA 2013) ...................... 9

Fuentes v. Shevin,

407 U.S. 67 (1972) ............................................... 8

Goldberg v. Kelly,

397 U.S. 254 (1970) ............................................. 8

Hartley v. Comerford, 2014 WL 241759

(U.S.D.C. N.D. Fla. 2014) .................................. 25

Hicks v. Hicks,

715 So.2d 304 (Fla. 5th DCA 1998) .................. 25

Hinton v. Gold,

813 So.2d 1057 (Fla. 4th DCA 2002) .................. 8

Kelsey v. Suntrust Mortgage,

131 So.3d 825 (Fla. 3d DCA 2014) ...................... 6

Mourning v. Ballast, Nedam Construction,
Inc., 964 So.2d 889 (Fla. 4th DCA 2007) .......... 18
Pasco County v. Quail Hollow Properties, Inc.,

693 So.2d 82 (Fla. 2d DCA 1997) .......... 24, 25, 27

Rand v. Paul,

807 So.2d 191 (Fla. 3d DCA 2002) .................... 25

Sandefur v. RVS Capital, LLC,

183 So.3d 1258 (Fla. 4th DCA 2016) .................. 7

Schlesinger v. Chemical Bank,

707 So.2d 868 (Fla. 4th DCA 1998) .................. 29

Shaffer v. Deutsche Bank National Trust,

253 So.3d 943 (Fla. 2d DCA 2017) .................... 10

x
TABLE OF AUTHORITIES—Continued
Page

Stoll v. State,

762 So.2d 870 (Fla. 2000) .................................... 7

Sunrise Gift and Souvenir, Inc. v. Marcotte,

698 So.2d 345 (Fla. 5th DCA 1997) .................. 28

Tibbs v. State,

397 So.2d 1120 (Fla. 1981) .................................. 5

Weatherhead v. Coletti,

392 So.2d 1342 (Fla. 3d DCA 1980) .................. 26

Wells Fargo Bank, N.A. v. Sawh,

194 So.3d 475 (Fla. 3d DCA 2016) .................... 18

Wick v. Spector,

562 So.2d 402 (Fla. 3d DCA 1990) .................... 30

Wolkoff v. American Home Mortg. Servicing,
Inc., 153 So.3d 280 (Fla. 2d DCA 2014) .............. 8
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. XIV, § 1 ....................................... 2
STATUTES
28 U.S.C. § 1257(a) ..................................................... 2
Fla. Stat. § 90.203 ....................................................... 7
JUDICIAL RULES
Fla. R. Civ. P. 1.440 ...................................... 17, 18, 32

xi
TABLE OF AUTHORITIES—Continued
Page
OTHER AUTHORITIES
Bandell, Brian,

Palace of the ‘Foreclosure King’: See
Inside Ex-Attorney David Stern’s Fort
Lauderdale Mansion, Listed at $32M,

THE RANDLE REPORT, September 17, 2015 ......... 12

Egan, Matt,

I Begged Them for Help: Wells Fargo
Foreclosure Nightmare, CNN BUSINESS,

December 12, 2018 ............................................ 13

Koren, James,

Wells Fargo Foreclosed on 400 People Who
May Have Had a Chance to Keep Their
Homes, LOS ANGELES TIMES,

August 3, 2018 ................................................... 12

Lane, Ben,

Houston Couple Wins $4.5 Million in
Foreclosure Fraud Suit Against Wells
Fargo: Sometimes David Beats Goliath,

HOUSING WIRE, December 10, 2015 .................. 12

Miller, Kimberly,

Foreclosure Mills in the Clear; Florida
Closes Cases With No Findings,
PALM BEACH POST, October 5, 2012 .................. 12

Morgenson, Gretchen and Fabrikant, Geraldine

Florida’s High Speed Answer to a
Foreclosure Mess, THE NEW YORK TIMES,

September 4, 2010 ............................................. 11

xii
TABLE OF AUTHORITIES—Continued
Page
Morgenson, Gretchen,

Wells Fargo is Accused of Making
Improper Changes to Mortgages,

THE NEW YORK TIMES, June 14, 2017 ............... 12

Padovano, Philip,

Fla. Prac. Civil Practice (West 2017) ................ 26

Paul, Kari,

Wells Fargo Accidentally Foreclosed on
More Homes—What You Should Do in a
Similar Situation,

MARKET WATCH, August 7, 2018 ........................ 12

Scot Paltrow,

Banks Still Robosigning,

REUTERS, July 18, 2011 ....................................... 9

1

PETITION FOR A WRIT OF CERTIORARI
Petitioner, Miles Christian-Hart, respectfully petitions for a writ of certiorari to review the judgment
of the District Court of Appeal, Second District, State
of Florida (App.1a.) and the denial of the motion for
rehearing and for rehearing en banc thereon. (App.
25a).

OPINIONS BELOW
The District Court of Appeal, Second District,
State of Florida, entered its per curiam affirmance of
the consolidated appeal of the orders of the trial
court below, without opinion, on September 12, 2018
(App.1a) and its denial of the motion for rehearing
and for rehearing en banc thereon, without opinion,
on January 8, 2019. (App.25a).

JURISDICTION
The District Court of Appeal, Second District,
State of Florida, entered its amended denial of the
motion for rehearing and motion for rehearing en
banc of the per curiam affirmance on January 8,
2019, making the Petition due on April 8, 2019. Petitioner requested an enlargement of time to June 7,
2019, to file this Petition and the Court granted that

2
request. This Court has jurisdiction under 28 U.S.C.
§ 1257(a).

CONSTITUTIONAL PROVISION INVOLVED


U.S. Const. amend. XIV, § 1
Section 1 of the Fourteenth Amendment of the
United States Constitution provides in part,
“No state shall make or enforce any law which
shall abridge the privileges or immunities of
citizens of the United States; nor shall any state
deprive any person of life, liberty, or property,
without due process of law . . . ”

STATEMENT OF THE CASE
SUMMARY OF CASE
As the Second DCA did not issue an opinion, the
undersigned is reviewing the facts in depth below but
offers this quick summary. In 2005, Hart entered
into a proposed loan with World Savings Bank which
never closed. Under the HUD-1, payments were to be
made to Wells Fargo to Regions and to Hart, but
none were made, so, in this foreclosure action, Hart
asserted lack of consideration, and Wells Fargo never
provided proof any payments had been made. Hart
had signed a note and mortgage prior to the closing
in anticipation the loan would close. Those documents were recorded in error by the closing agent.

3
Having no proof the loan was funded, Wells Fargo
committed fraud on the court. At trial, as to the
Wells Fargo payment, it offered an unrelated release
from General Mortgage to deceive the court into
finding the Wells Fargo payment was made. As to
Regions, it offered a release from Regions knowing it
was rescinded as issued in error. Wells Fargo didn’t
include the releases on its exhibit list so Hart’s lawyer could be prepared for the fraud. The fraud was
especially blatant since Hart’s lawyer had listed on
Hart’s exhibit list a judgment from Regions proving
that no payment had been made. The court had
ordered Wells Fargo to provide final discovery to
Hart within 30 days, which was the day after trial, so
the day before trial, Wells Fargo filed a request for
continuance asking for more time, which Hart agreed
to, and expecting the continuance to be granted, Hart
did not bring a court reporter to the trial. This
appears to have been a ploy because, as there was no
transcript, Hart prepared a statement of the evidence
to try to reach an agreed substitute. In response,
Wells Fargo claimed that it was Hart who had
requested the continuance which Wells Fargo had opposed. The court denied the motion and the trial
went forward. However, even without a transcript, a
judgment can be reversed for fundamental error like
due process, and, under Florida law, due process may
be raised for the first time on appeal. Even though
Florida law requires a judgment of foreclosure be
supported by the correct note and mortgage, Wells
Fargo admits it never introduced nor had admitted
the correct note and mortgage at trial. Instead, Wells
Fargo states that it verbally requested the court to
take judicial notice of the note and mortgage, al-

4
though, in Florida, one cannot take judicial notice of
a mortgage, and, even if one could, such a request
must be in writing.
Wells Fargo was using an old ploy in which a
party circumvents the judicial notice rules by taking
judicial notice of the court file—including the mortgage and note filed therein. Regardless, in this case,
neither of the correct documents appear as trial evidence and the only note and mortgage admitted as
trial evidence is for a loan between a Phyllis Savage
with Bank of America. Not having a record to support the judgment violated due process as did setting
the trial within 30 days. After the trial, the successor
judge initially agreed to hear Hart’s motion for a new
trial, but, after the undersigned filed an amended
motion for new trial and a motion for leave to file
omitted counterclaim, the judge abruptly cancelled the
hearing the day before, denying the motions, asserting
the undersigned had never filed a notice of appearance. After realizing the undersigned had filed a
notice of appearance, the court said it was also no
good, as the formal notice of appearance had hit the
e-file system five minutes later that day, making the
pleadings a nullity, even though the five minute
delay prejudiced no one, this was supposed to be a
court of equity, and Wells Fargo’s trial attorneys
never filed a notice of appearance. This also violated
procedural due process. That judge disqualified himself and the undersigned moved for reconsideration
of his orders as a denial of due process. At the
hearing before the final successor judge, Hart’s
counsel reminded the court that the first successor
judge had never reached the merits. However, the

5
second successor judge ruled he was in agreement
with the prior judge’s orders.
THE FORECLOSURE CRISIS
Prior to the foreclosure crisis when foreclosures
were rare, foreclosure Plaintiffs work was routinely
assigned to attorneys who agreed to be placed on a
list. While there were occasional disputes over evidence, there were no reported instances of attorneys
in Florida knowingly presenting false evidence to
obtain a judgment of foreclosure, and, in fact, a foreclosure action was regarded as one of the simplest to
prosecute in all of litigation. In Florida, the Uniform
Final Judgment of Mortgage Foreclosure begins as
follows: “THIS action was tried before the Court. On
the evidence presented . . . ” Under Florida law, a
trial court’s decision to enter a Final Judgment of
Mortgage Foreclosure is reviewed under the competent, substantial evidence standard. See, Tibbs v.
State, 397 So.2d 1120 (Fla. 1981), holding there must
be competent, substantial evidence to support a
verdict or a judgment. In the context of a foreclosure
action, Florida’s District Courts have repeatedly
dealt with the elements of a prima facie foreclosure
case at trial. In Figueredo v. Bank Esposito Santo,
537 So.2d 1113 (Fla. 3d DCA 1989), the Third DCA
noted that the Plaintiff had failed to produce for admission into evidence the original of a negotiable
promissory instrument as “expressly required” by the
Florida Evidence Code and thus found the final judgment of foreclosure had to be vacated. The leading
Second DCA case of Fair v. Kaufman, 647 So.2d 167
(Fla. 2d DCA 1994), holds,

6
“In order to prevail in a suit on a note and
mortgage, the original note and mortgage
must be introduced into evidence or a satisfactory reason given for failure to do so . . . The
record in this case does not indicate the original documents were offered and/or received
into evidence. The appellees argue the original note and mortgage were filed and placed
into evidence at the summary judgment hearing. This is not sufficient. The introduction
of such documents at a summary judgment
proceeding does not obviate the necessity for
proper introduction at trial . . . The failure to
introduce those original documents precludes
the entry of a final judgment.”
In Beaumont v. Bank of New York Mellon, 81
So.3d 533 (Fla. 5th DCA 2012), the Fifth DCA held
that a document that was contained in the record,
but not offered into evidence at trial, was not “competent” evidence and could not be considered. In
Figueroa v. Federal Nat’l. Mortg. Ass’n, 180 So.3d
1110 (Fla. 5th DCA 2015), the Fifth DCA held that a
“document that was identified but never admitted
into evidence as an exhibit is not competent evidence
to support a judgment.” See, also, Kelsey v. Suntrust
Mortgage, 131 So.3d 825 (Fla. 3d DCA 2014), holding
even a default judgment requires the introduction of
the proper documents.
Wells Fargo contends that its counsel verbally
requested the trial court to take judicial notice of the
note and mortgage which had been filed earlier with
the clerk. However, this is not a “satisfactory reason”
for a failure to introduce the proper documents at

7
trial and no Florida court has ever abided the taking
of judicial notice of a mortgage. In Bull v. Jacksonville Fed. Sav. & Loan, 576 So.2d 755 (Fla. 1st DCA
1991), the First DCA held that mortgages are “not
included in the list of matters which must or may be
judicially noticed.” Even if one could take judicial
notice of a mortgage, which one cannot, one must
follow the statutory procedures, including meeting
the due process requirement of providing notice to
the adverse party. F.S. 90.203 of Florida’s Evidence
Code requires that a party be given timely written
notice of the request, proof of which is filed with the
court, to enable the adverse party to prepare to meet
the request. Further, if a court takes judicial notice,
it must be made a part of the record and there is no
“record” here of the request being made or granted.
In Sandefur v. RVS Capital, LLC, 183 So.3d 1258
(Fla. 4th DCA 2016), the Fourth DCA cited Bull for
the proposition that one cannot take judicial notice of
a mortgage and also held that the parties and the
Court must follow the statutory procedures before a
document may be judicially noticed. Finally, as noted
in DiGiovanni v. Deutsche Bank National Trust
Company, 226 So.3d 984 (Fla. 2d DCA 2017), “judicially noticed documents must be otherwise admissible” citing Stoll v. State, 762 So.2d 870, 877 (Fla. 2000),
holding, “(W)e find that documents contained in a
court file, even if that entire court file is judicially
noticed, are still subject to the same rules of evidence
to which all evidence must adhere.” Thus, one cannot
circumvent Florida’s Evidence Code by filing documents in a court file and then taking judicial notice
of the filed document. In Hart’s case, the weight and
sufficiency of the evidence to establish the loan was

8
funded was zero and the weight and sufficiency of the
evidence of the note and mortgage at trial was also
zero. In Wolkoff v. American Home Mortg. Servicing,
Inc., 153 So.3d 280 (Fla. 2d DCA 2014), the Court
held that the weight and sufficiency of the evidence
may be raised for the first time on appeal. Although
one must ordinarily preserve an issue on appeal by
presenting it to the trial court, “there is an exception
to this general rule, however, where the trial court’s
actions constitute fundamental error.” See, Chiu v.
Wells Fargo Bank, 242 So.3d 461 (Fla. 3d DCA 2018)
where a denial of due process was raised for the first
time on appeal. In this regard, a judgment, not based
on record evidence, is not only violative of Florida
law, but of due process generally, and of controlling
Supreme Court precedents. Thus, in Goldberg v. Kelly,
397 U.S. 254 (1970), the affected party was entitled
to notice of a hearing before an impartial decisionmaker, the opportunity to be heard at the hearing,
the right to confront and cross examine witnesses,
and the right to a statement setting out the evidence
relied upon and the legal basis for the decision. See,
also, Fuentes v. Shevin, 407 U.S. 67 (1972), dealing
with procedural due process, and, Hinton v. Gold,
813 So.2d 1057 (Fla. 4th DCA 2002) holding,
“Due process demands that the defendant
be given fair notice and a reasonable opportunity to be heard before judgment is rendered”
and
“Fundamental to the concept of due process
is the right to be heard which assures a full
hearing, the right to introduce evidence at a

9
meaningful time and in a meaningful
manner, and judicial findings based upon
that evidence. Brinkley v. County of Flagler,
769 So.2d 468, 472 (Fla. 5th DCA 2000).”
DUBIOUS PROOF IN THE SECOND DISTRICT
In 2011, Scot Paltrow wrote a special report
entitled, Banks Still Robosigning, REUTERS, July 18,
2011, where the author noted that, “America’s
mortgage lenders vowed to end the dubious foreclosure
practices that caused a bruising scandal last year”
but the fraud was actually evolving, not ending. The
acceptance of dubious proof has emerged as a recognized problem throughout Florida, but especially in
the Second District, in which certain trial judges
have had enough of strict compliance with evidence
law. For example, in Focht v. Wells Fargo Bank, 124
So.3d 308 (Fla. 2d DCA 2013), the Second DCA dealt
with the proof requirement of standing at the inception
of a case, certifying the following question as being
one of great public importance: “CAN A PLAINTIFF
IN A FORECLOSURE ACTION CURE THE INABILITY TO PROVE STANDING AT THE INCEPTION
OF SUIT BY PROOF THAT THE PLAINTIFF HAS
SINCE ACQUIRED STANDING?”
In that case, former Judge Altenbernd stated that
he concurred “in this decision because existing precedent requires me to do so” but that,
“Presumably, our mandate requires the dismissal of this foreclosure action, which in
turn will undo the foreclosure sale. Ms.
Focht will regain possession of her property
and apparently continue her free use of the
duplex while the lender continues to make

10
advances to cover the expenses typically
paid from escrow. Our certified question of
great public importance is dispositive of this
appeal and worthy of consideration by the
Supreme Court.”
The Florida Supreme Court did not find the
question worthy. In any case, dubious proof continued to be such a problem within the Second DCA
that four years later, former Second DCA Chief
Judge Villanti offered his own views in Shaffer v.
Deutsche Bank National Trust, 253 So.3d 943 (Fla.
2d DCA 2017), where a bank had offered no evidence
to establish it owned the note on the date it filed the
foreclosure complaint, and thus failed to prove it had
standing. Judge Villanti offered recommendations
based on his observations “from the flood of foreclosure litigation that this court has reviewed in the
past few years” noting in his second recommendation
that it would behoove the legislature to consider
legislation requiring foreclosure defendants “who
wish to raise any defense other than payment to pay
the amounts required by the note and mortgage into
the court registry” as
“It appears that many foreclosure judgments are entered based on dubious proof
by the banks due to an understandable lack
of sympathy for defendants who are years
behind on payments and who are raising
what appear to be spurious delaying defense
tactics. Requiring foreclosure defendants to
make their payments into the court registry
would alleviate the temptation to excuse
strict compliance with the laws of evidence.

11
This method has been successfully utilized
in tenant eviction cases in which tenants
are free to raise defenses to an eviction, but
may not do so while at the same time refusing to pay rent . . . Using chapter 83 as a
template, the legislature could address the
foreclosure backlog and ensure that foreclosure cases would be expedited without
sacrificing due process.”
FLORIDA’S FORECLOSURE MILLS
Foreclosure work is now largely handled by a
limited number of foreclosure firms. In Gretchen
Morgenson and Geraldine Fabrikant’s article, Florida’s
High Speed Answer to a Foreclosure Mess, THE NEW
YORK TIMES, September 4, 2010, then Florida Attorney General McCollum identified three law firmsLaw Offices of Marshall C. Watson, Shapiro & Fishman, and the Law Offices of David J. Stern—as
being foreclosure “mills” and that,
“They submit false documents, fabricate the
documents, or the documents actually don’t
exist. They wanted to speed the process up
because the faster they get the foreclosures
done the better.”
With the emphasis on speed, the mills found a
perfect place to practice in Florida’s rocket dockets.
In that article, David Stern, known as America’s
foreclosure king, said, “I can’t speak for the other
firms, but I can assure you that there has not been
submission of fraudulent documents. We feel a lot of
it is politically motivated. We have done nothing
wrong and are going to cooperate fully.” Two months
later however, in November, 2010, Stern’s connec-

12
tions with Fannie Mae and Freddie Mac were
reportedly severed, and though eventually disbarred,
Stern still had the trappings of success of every foreclosure king and queen. See, Bandell, Brian, Palace
of the ‘Foreclosure King’: See Inside Ex-Attorney

David Stern’s Fort Lauderdale Mansion, Listed at
$32M, THE RANDLE REPORT, September 17, 2015.
When it came to law enforcement, the foreclosure
mills became largely untouchable. See, for example,
Miller, Kimberly, Foreclosure Mills in the Clear;
Florida Closes Cases With No Findings, PALM BEACH
POST, October 5, 2012, explaining how McCollum’s
successor as attorney general had fired the top two
investigators and which specifically names the trial
law firm herein—Albertelli Law—as a foreclosure
mill under investigation. Although much has been
written about the mills, much has also been written
about the banks, including Wells Fargo, which had
specially developed a manual to deal with its foreclosures.
Although numerous articles have been written, a
few recent items will be mentioned here: Lane, Ben,

Houston Couple Wins $4.5 Million in Foreclosure
Fraud Suit Against Wells Fargo: Sometimes David
Beats Goliath, HOUSING WIRE, December 10, 2015;
Morgenson, Gretchen, Wells Fargo is Accused of
Making Improper Changes to Mortgages, THE NEW
YORK TIMES, June 14, 2017; Paul, Kari, Wells Fargo
Accidentally Foreclosed on More Homes—What You
Should Do in a Similar Situation, MARKET WATCH,
August 7, 2018; Koren, James, Wells Fargo Foreclosed
on 400 People Who May Have Had a Chance to Keep
Their Homes, LOS ANGELES TIMES, August 3, 2018;
and Egan, Matt, I Begged Them for Help: Wells Fargo

13

Foreclosure Nightmare, CNN BUSINESS, December 12,
2018.

THE FORECLOSURE MILLS AND JUDICIAL NOTICE
The mills had long been challenged over one
issue. Since certain of its offered documents might
possibly be fake, the idea was to create as much distance as possible between the fakes and themselves,
not to mention the court. The answer came with judicial notice, but to do so required breaking a few laws.
First, the mill would have to convince a judge that
a court could take judicial notice of a mortgage.
Second, the mill would have to convince the judge it
could do so verbally. For the mill, the win was
twofold. First, this would offer the element of surprise, but, also, the mill wouldn’t want to put such a
facially illegal request in writing with the obvious
purpose of circumventing the law. A person would
wonder why, given the originals were already in the
court file, what motive there would be for not wanting
to introduce them at trial. One excuse offered was
that doing so would somehow save the clerks “labor”
as if transporting the originals to the courtroom was a
monumental effort. In the instant case, the trial court
not only agreed to take judicial notice, but to do so
verbally, she said, to help out the clerks.
WELLS FARGO VERBALLY
REQUESTS TO TAKE JUDICIAL NOTICE
In response to the Defendant’s statement of the
evidence, Wells Fargo explained how it was using (or
misusing) judicial notice. Wells Fargo counsel noted
that Plaintiff had earlier filed the note and mortgage,
and, “At trial, Plaintiff requested the Court take judicial notice of the original documents and admit them

14
into evidence as they appear in the Court’s file.”
Then, at the hearing to settle the record, Wells Fargo’s
counsel said, “The original documents have previously been filed with the Court. And during the trial,
there was no admission of a note and mortgage—a
physical admission, other than asking—telling the
Court that the original documents were previously
filed and asking the Court to take judicial notice of
them and admit them into evidence.” Later, at the
same hearing, its counsel said, “And opposing counsel
stated that I did not make a request for judicial
notice. As part of my questioning in the trial, your
Honor, when an original document has been filed
with the Court, I will ask the Court to take judicial
notice of it and admit it into evidence as it appears in
the Court’s record. And that’s what took place in this
case.” As to the wrong note and mortgage being
“admitted” in evidence, she stated,
“And the original documents were previously filed. The clerk made an error and took
the original documents from another case
that was in front of the Court and also
admitted that into evidence as well.”
There was one big flaw. Even if it were legal to take
verbal judicial notice of a mortgage, which it isn’t,
that doesn’t admit documents in evidence so at least
copies of the note and mortgage would have to be
introduced and admitted in evidence, but no such
documents were in the evidence record here. At oral
argument, on August 29, 2018, the merits panel
hammered Wells Fargo on this issue as it goes to the
fundamental fairness of the trial. They wanted to
know if the judgment was based on the Savage docu-

15
ments or on the Hart documents. Based on the
responses, a PCA was decided that day, but it was not
entered for two weeks. Not knowing the PCA had
already been decided, the parties entered into a
stipulation to clarify for the merits panel prior to
issuing its decision, that neither the correct original
note and mortgage nor copies thereof, were in the
evidence record. That was clearly responsive to the
issues raised at oral argument. After the PCA was
issued, the undersigned moved for a rehearing
stating that, as a matter of procedural due process, it
was critical for the merits panel to have considered
the stipulation. The undersigned went further in the
motion for rehearing en banc stating that Wells
Fargo’s appellate counsel confirmed the correct note
and mortgage had not been introduced at the foreclosure trial. In response, Wells Fargo counsel stated in
a footnote in its response that, “However, counsel for
Wells Fargo has never stated that Wells Fargo did
not introduce a copy of the Note and Mortgage at
Trial and no transcript of the Trial exists to determine whether a copy of the Note and Mortgage were
actually admitted at Trial.” For the first time, Wells
Fargo was putting in writing what was being
insinuated at oral argument, that it had introduced
the copies and we don’t know if they were admitted
at trial. While originals are preferable, as Wells
Fargo said it had introduced copies, that would be
more probative of fundamental fairness and due
process on this issue. The only problem was that it
was completely false. In fact, Wells Fargo’s trial counsel
had said that no such documents were physically
offered at trial. This means no such documents could
have been admitted either. This was the last plead-

16
ing before the full court would rule. The undersigned
filed a motion for leave to reply noting in the reply
that Wells Fargo had changed its story and, “The full
membership of the Second DCA must be made aware
of what is at stake here.” However, the merits panel
struck the Reply so the full Court never saw it. All
they saw before they issued the denial of the motions
for rehearing, was a notice of withdrawal of statement filed by Wells Fargo after the merits panel had
struck the Reply, but the undersigned had been
denied a full opportunity to be heard on this issue. To
recap, it is undisputed the trial court herein allowed
Wells Fargo to verbally request the trial court to take
judicial notice of the documents. As Judge Donnellan
put it to the undersigned at the hearing to settle the
record,
“You can make that argument to the appellate court. It was standard operating procedure, as a matter of fact, the original documents had to be filed before the trial. There
was a check-off list that said they had to be
filed before. Check off list showed they had
been filed in every case. So the Court took
judicial notice rather than having the clerk
bring over the original documents. So I’m
not getting into that argument. That’s for
the appellate court.”
While her procedure was facially illegal, it also made
no sense, as copies would still have to be introduced
in the record. Thus, even accepting Wells Fargo’s
version of events, what it had done was to verbally
request the court to take judicial notice of the note
and mortgage, but still offer no documents whatso-

17
ever, in contravention of Florida law, which is what
the merits panel was driving at. This is why the
stipulation was needed to clarify that nothing was in
the record to support the Hart judgment. As a matter
of fundamental fairness, as well as due process, the
merits panel was obliged to reverse once it determined
there was no record evidence to support the judgment.
Affirming in this scenario was facially violative of
due process.
DUE PROCESS VIOLATIONS
As noted, a due process violation constitutes
fundamental error under Florida law and may be
raised for the first time on appeal. In this case, the
failure to provide proper notice of the trial constituted
a due process violation under Fla. R. Civ. P. 1.440, the
failure to provide record evidence supporting the
judgment violated due process, and, as will be seen
below, the failure to provide an opportunity to be
heard as to the post judgment motions, all violated
due process.
RULE 1.440
Fla. R. Civ. P. 1.440(c) provides a trial date shall
be set not less than 30 days from the service of the
notice but here the trial was set for 29 days. As noted
on page 5 of the initial brief, “This requirement of
due process is well established.” As noted, this is a
due process issue and may be raised on appeal and is
related to the denial of the continuance. That is, on
March 9, 2015, the trial court only allowed 29 days
before the trial but did allow 30 days to respond to
the discovery. However, Hart was never provided his
promised discovery. In its answer brief, Wells Fargo
tried to point to cases where such a violation is minor

18
ignoring Mourning v. Ballast, Nedam Construction,
Inc., 964 So.2d 889 (Fla. 4th DCA 2007), stating the
“order setting the case for trial shall give at least 30
days’ notice from the entry of that order to the trial
date itself ”, BAC Home Loans v. Parrish, 146 So.3d
526 (Fla. 1st DCA 2014) holding it to be reversible
error to set a trial 28 days later, making the judgment defective, and Wells Fargo Bank, N.A. v. Sawh,
194 So.3d 475 (Fla. 3d DCA 2016), where Wells
Fargo complained about violation of its Rule 1.440
rights, and without a transcript, the court therein
held the trial court was required to provide Wells
Fargo the 30 days’ notice.
THE TRIAL AND THE POST TRIAL MOTIONS
In 2016, the foreclosure sale was set for May 12,
2016, and the undersigned spoke with Hart who said
he had not been notified of that hearing. A review of
the file showed that judgment had been entered by
Judge Donnellan on April 7, 2015, where Hart was
represented by counsel, who withdrew afterwards.
On April 17, 2015, Hart timely filed a pro se motion
for new trial on the basis that the court had forced
the defendant to go to trial despite outstanding discovery violations by Wells Fargo. Briefly, in 2005,
Hart had entered into a proposed loan with World
Savings Bank, a bank subsequently acquired by
Wachovia Bank, which was itself acquired by Wells
Fargo. The closing was to be handled by a local attorney (Finkelstein). According to the proposed HUD-1
$85,721.28 was to be disbursed to Wells Fargo,
$53,753.73 was to be disbursed to Regions Bank, and
$21,262.29 was to be disbursed to Hart directly. The
disbursements were due to be made on December 5,

19
2005, but the loan did not close. Hart had earlier
signed the note and mortgage in anticipation the loan
would close. (Hart was out of town on the closing
date). Finkelstein has stated that the closing documents
were recorded in error but forwarded on to World.
Hart states that he was assured by World that the
matter would ultimately be straightened out, with a
new loan closed, and that he should continue to make
payments to protect his credit. However, the matter
was never straightened out, so in 2010, Wells Fargo
filed suit to obtain a foreclosure. Hart’s principal
defense was one of lack of consideration, and, during
discovery, Hart requested proof that the proposed
HUD-1 payments had been made, asking,
“Question 5: Produce copies of the front and
back of any and all checks indicating disbursement of funds resulting from the settlement
of November 29, 2005.
“Response 5: Objection, not likely to lead
to admissible evidence. The request is not
relevant to breach of contract that occurred.
Notwithstanding and not waiving the aforementioned objection, please find a copy of
the payment history attached hereto.”
Wells Fargo knew that it had not received any payment,
and would always change the subject to observe that
Hart had made some payments on the loan. However,
as noted, mistakenly making payments on a loan
proves nothing as the note and mortgage had been
recorded and forwarded to World in error. On March
1, 2015, Hart filed a further motion to compel noting
that one ‘Val Riddle” had been listed as Wells Fargo’s
witness but no information had been provided about

20
her. On March 9, 2015, Judge Donnellan issued a
series of rulings. She granted the motion to compel
ordering Wells Fargo to provide the information about
the witness but hand wrote in that same order that
there “shall be no more discovery propounded by the
Defendant” and set trial for April 7, 2015. Also, prior
to trial, Wells Fargo had been contacting Hart directly,
although represented by counsel, and Hart filed a
motion to prohibit Wells Fargo from contacting Hart
directly. Wells Fargo opposed the motion and it was
denied.
On March 26, 2015, Wells Fargo served its amended witness and exhibit lists. The witness list replaced
“Val Riddle” with a “Torrie Scott” while the exhibit
list was a boilerplate list of documents Wells Fargo
said it would introduce at trial, including the note
and mortgage. Hart, in turn, listed two exhibits on
his list, the proposed HUD-1 and the court docket in
2010 CA 009249NC, which was the case where
Regions Bank had sued Hart as it had not been paid
a penny. As Riddle had been replaced by Scott, Hart
filed a motion in limine to exclude her as he had been
denied the opportunity to take her deposition. The
day before the trial, April 6, 2015, however, Wells
Fargo served a “motion to continue non-jury trial”
noting that the period to respond to Hart’s discovery
(30 days) had not elapsed, and, as such, the April 7,
2015 “trial should be continued to allow Plaintiff the
time provided by the Order to comply.” Again, Hart
agreed to this motion, and, expecting the unopposed
Wells Fargo motion to be granted, did not bring a
court reporter to the trial. As it happened, Judge
Donnellan denied the motion in limine and the
motion to continue and the trial went forward. It is

21
undisputed that Judge Donnellan permitted Scott to
testify and that two releases were admitted as Plaintiffs evidence, that neither release had been disclosed
by Wells Fargo on its exhibit list, all to establish the
mortgage loan had been consummated. To show that
Regions had been satisfied, Wells Fargo introduced a
release from Regions Bank where it acknowledged
that it had “received full payment and satisfaction” of
the same but offering this release was deceptive as,
in a related instrument, Regions stated the release
had been issued in error, and was void, Regions
having been paid no funds whatsoever. Wells Fargo
also misled the court with another release it had
found issued by General Mortgage Corporation and
returned to Hart directly, which bore no connection
to this case. Also, back in 2012, Wells Fargo had filed
a notice of filing the purported Hart original note and
mortgage. Although Wells Fargo had listed the note
and mortgage on its exhibit list as documents it
would introduce at trial, Wells Fargo failed to introduce the note and mortgage at trial, although the
court did admit as trial evidence the note and mortgage for an unrelated loan with Bank of America in
which a Phyllis Savage was the borrower. Judgment
was entered without any record evidence, admitted
or otherwise, of the Hart note and mortgage.
Following the judgment, Hart’s trial counsel
withdrew, and Hart filed a motion for a new trial on
the basis that “the court forced the defendant to go to
trial despite outstanding discovery violations by the
plaintiff.” Hart had no way of knowing that the witness just added would be used to introduce the
releases never disclosed in Wells Fargo’s list. In
2016, Wells Fargo filed a motion to set a foreclosure

22
sale date which was heard by a successor judge (Iten)
on March 31, 2016, at which the court granted the
motion and set the sale for May 12, 2016. Having not
been aware of this, Hart did not attend the hearing.
The undersigned was then retained on behalf of Hart
and filed a motion to set aside and vacate the foreclosure sale noting that Hart had not received notice of
the hearing and further that he had a pending motion. The undersigned also filed an agreed notice of
hearing for May 6, 2016. At the bottom of each, the
undersigned was listed as “Attorney for Defendant
Hart.” On May 6, 2016, Judge Iten granted the motion
and cancelled the sale and set Hart’s motion for new
trial for June 10, 2016, at 8 am, for one hour. At the
May 6, 2016, hearing, Hart testified that he and his
prior attorney had gone to the trial and “we thought
that that was going to be a continuance. Judge
Donnellan decided to do trial. So I didn’t have a court
reporter there or anything because we thought we
were just going up for a continuance.” Hart explained
that he had filed the motion for new trial because “I
felt that my due process was being, you know—
discovery had never been met.” On June 1, 2016, the
undersigned e-filed two motions with the court—a
motion for leave to file omitted counterclaim which
stated that Wells Fargo had been aware that the proposed loan was never consummated and Hart was
led to believe that if he continued to make payments,
the matter would be straightened out and the payments returned to him, although, in fact, Wells Fargo
had wrongfully retained the payments and wrongfully sought foreclosure for a property to which it was
not legally entitled. The amended motion for new
trial noted that, in addition to the original basis for a

23
new trial, two grounds should be added in that the
loan was never funded and Wells Fargo had failed to
make a prima facie case (as the proper note and
mortgage had not been produced at the trial). The
undersigned noted therein that a timely motion for
new trial may be amended to state new grounds in
the court’s discretion at any time before the motion
for new trial is determined.
At the May 6, 2016, hearing, Judge Iten had
stated, “I’m not going to take any more evidence.
We’re done with the evidentiary portion of the
hearing” refusing to allow the undersigned to finish
saying, “I’m going to grant the motion. And this is
what needs to be done. We need to get this motion for
new trial heard” and the court set that date for June
10, 2016, which was reset by the Court’s judicial
assistant to June 8, 2016. The undersigned received
a call from the court’s judicial assistant on June 7,
2016, to notice the hearing for June 9, 2016, at noon.
Having received agreement from opposing counsel,
the undersigned filed an agreed notice of hearing for
June 9, 2016, listing all three pending motions. On
June 8, 2016, however, the undersigned discovered
that Judge Iten was cancelling the hearing and the
Court issued three orders. In his initial order, the
Court denied Hart’s pro se motion without any explanation and denied the amended motion for new
trial asserting that the undersigned had “never” filed
a notice of appearance, thereby making the motion a
“nullity.” This was the case notwithstanding the
undersigned having indicated in earlier pleadings he
was attorney for Hart, and, at the hearing itself, specifically stating that he was Hart’s attorney putting
the court and the parties on notice of the same. That

24
is, at the May 6, 2016, hearing, the undersigned said,
“I’m Steven Fox. I represent the Defendant, Miles
Hart.” In the original order, the notice of appearance
issue was the sole basis for denying the amended
motion with the Court citing Pasco County v. Quail
Hollow Properties, Inc., 693 So.2d 82 (Fla. 2d DCA
1997), in support.
Following the receipt of the first order, the
undersigned telephoned the Court’s assistant and
explained the undersigned had on numerous times
entered a notice of appearance and had even filed a
formal notice of appearance on June 1, 2016, at the
beginning of the motion for leave to file omitted
counterclaim which read, “The undersigned enters
his appearance herein.” Judge Iten then issued an
amended order still denying Hart’s motion for new
trial without any explanation, and, again, without
Hart having been permitted to complete his case, and
issued an amended footnote claiming the undersigned’s pleading was still a nullity as the notice of
appearance was not filed “prior to or contemporaneous with the filing of the amended motion.” The
undersigned examined the motions and realized that
the motion containing the notice of appearance which
had been intended to be filed first went second by
five minutes. That is, the notice of appearance
entered the system at 6:54 pm while the amended
motion for new trial entered the system at 6:49 pm.
Both motions were filed together and contemporaneously however. Florida law provides how time is to be
computed and there is no requirement a pleading be
filed by a given minute or second to be given effect.
Was the court seriously suggesting that a five minute
delay in a formal notice of appearance which preju-

25
diced nobody in a court of equity would be a basis for
nullifying a pleading so a client could lose his home?
No court in American history has taken such a position. Moreover, the undersigned read Pasco County,
in which a notice of appearance had been filed on a
much later date, not five minutes later on the same
date. In Pasco, the Second DCA had stated,
“The motion to dismiss that attorney Orcutt
filed on February 20, 1996, a date when he
had not yet filed a notice of appearance was,
therefore, a nullity.”
The operative word is date, not minute, as in the present case, both motions were filed on the same date
and together, just five minutes apart. In Hicks v.
Hicks, 715 So.2d 304 (Fla. 5th DCA 1998), the Fifth.
DCA declined to follow Pasco County altogether
stating that, “once full compliance with the rule has
been accomplished . . . a better view of the situation
would be to hold that the pleadings filed on the
client’s behalf are legally effective, retroactively, or
nunc pro tunc” and, in Hartley v. Comerford, 2014
WL 241759 (U.S.D.C. N.D. Fla. 2014), Chief Judge
Rodgers wrote that the “Hicks rationale, which seems
sensible and pragmatic is the better approach.” As
the undersigned has stated repeatedly, there are no
“magic words” needed to constitute a notice of appearance in any case and even the prior notations had
sufficed. As the Third DCA noted in Rand v. Paul,
807 So.2d 191 (Fla. 3d DCA 2002),
“Although counsel did not file a formal notice
of appearance, an appearance may be found
even in the absence of any filings when an
attorney shows up for a hearing . . . See, e.g.,

26

Florida Public Service Comm’n v. Pruitt,
Humphrees, Powers & Munroe Advertising
Agency, Inc, 587 So.2d 561, 562 n 2 (1st DCA
1991). A notice of appearance is merely a
convenient way of placing counsel’s name and
address on the record. Weatherhead v. Coletti,
392 So.2d 1342, 1344 (Fla. 3d DCA 1980).”

As Judge Padovano notes in his treatise, Fla. Prac. Civil
Practice (West 2017), in the section entitled “appearance” that,

“The filing of a pleading or court paper by a
member of the bar on behalf of a party generally constitutes an appearance as counsel
for that party” and that
“There is seldom need to file a formal notice
of appearance in a civil case. Under Florida
law, the filing of any paper on behalf of a
party is regarded as an appearance as
counsel for that party.”
Moreover, no attorney for Albertelli Law had
ever filed a notice of appearance in the case. In the
original order, the sole basis for denying the amended
motion was the purported non-filing of a notice of
appearance, but, in his amended order, the Court
added that the “belated filing of the motion is
unfairly prejudicial to Plaintiff.” If this was actually
a basis for the denial, why wasn’t this included in the
original denial? Also, Wells Fargo had never responded to the motions, much less asserted it was prejudiced; the Court was simply asserting it on Wells
Fargo’s behalf, and without hearing from the parties,
making a finding of prejudice. Even had there been a
new trial, there was no basis for prejudice as there

27
had been no changes in the facts since 2015. The
Plaintiff couldn’t prove the loan was funded then and
couldn’t prove so now. As to the failure to make a
prima facie case, the original note and mortgage are
still in the court file, and if the Plaintiff can make a
prima facie case, it could do so now. As the undersigned stated in his proffer, “the only sense that
Wells Fargo could possibly be ‘prejudiced’ herein is
the ‘prejudice’ faced by any fraudster. If a fraudster
perjures himself in court and there is to be a retrial,
there is ‘prejudice’ in the sense that at the new trial,
at which there will be a court reporter present, and
Wells Fargo won’t be so fortunate.” In any case, a
judge is supposed to be impartial and not advance
suggestions not found in the pleadings. Of note, in
the trial court’s denial of the motion for leave to file
omitted counterclaim, the court goes point by point
mentioning the five minute delay asserting that, as
he was denying the amended motion, he was denying
the motion for leave as well. That didn’t even make
sense since the motion for leave did contain a notice
of appearance. Again, as noted in Pasco County, the
purpose of such a notice is to provide “notice to all
that he or she acts on the client’s behalf and has
authority to bind the client.” Oddly, when Judge Iten
added the prejudice issue in the second order, he
used the word “and” meaning that both had to be
true. Thus, Judge Iten must be correct on both
grounds to declare the motions a nullity. More oddly,
in his third order, Judge Iten dropped the prejudice
argument entirely. The undersigned moved to disqualify him which was granted and the undersigned
then filed a motion for reconsideration. In that motion, the undersigned noted that under Sunrise Gift

28

and Souvenir, Inc. v. Marcotte, 698 So.2d 345 (Fla.

5th DCA 1997), the rule does not limit the scope of a
successor judge to new matters and so a motion for
reconsideration is not analogous to a motion for rehearing. The undersigned sought reconsideration of
all of the orders stating,
“In each and every instance, the trial court
failed to provide an opportunity to be heard
and violated fundamental due process. As to
the Motion for New Trial, this Motion was
based on the trial court’s failure to provide
discovery necessary for a fair trial. As to the
Amended Motion for New Trial, this added
two additional grounds for a new trial, that
the purported mortgage was not funded and
that the Plaintiff had failed to make a
prima facie case. In fact, the evidentiary
record is clear that the trial court had
admitted evidence herein related to a loan
from another borrower (Savage) at an entirely
different bank (Bank of America). As to the
Motion for Leave to file Omitted Counterclaim, this motion was simply intended to
allow the Defendant to recover the amounts
justly owed. Each of the above described motions should have been heard and granted
and the Defendant seeks reconsideration
herein.”
The case was reassigned to Judge Curley who
ordered Wells Fargo to respond. Its response asserted
that Florida law permits only a single post judgment
motion for rehearing; it said when the motion was
denied, it is not subject to reconsideration because

29
the trial court loses jurisdiction when it denies the
motion. In its response, Wells Fargo also stated, “the
above styled cases concern motions for rehearing,
there can be no rationale as to why a motion for
reconsideration would provide an additional opportunity for litigation.” Then, Wells Fargo noted that
while a trial court may reconsider a non-final order,
the courts are not required to exercise that authority
and that “a motion for reconsideration may be filed
at any time until the entry of Final Judgment.” Wells
Fargo asserted that, as to due process,
“Defendant alleges that the trial court failed
to provide an opportunity to be heard and
that the Defendant was deprived of fundamental due process. However, Defendant does
not cite any Florida Rule of Civil Procedure
or appellate authority that requires a hearing
on the motions.”
None of these points had merit. First, Wells Fargo
was clearly confusing a motion for reconsideration
following disqualification with a motion for reconsideration of a non-final order. As noted in Schlesinger
v. Chemical Bank, 707 So.2d 868 (Fla. 4th DCA 1998),
in which a successor judge had denied a motion
“because he was of the view that a successor judge
cannot vacate a final judgment entered by a prior judge.
That conclusion was incorrect.” The Fourth DCA stated
therein,
“A final judgment entered by a judge who
was later disqualified is, like any other
order, subject to being reconsidered by a
successor judge.”

30
On the issue of final v. non-final orders, as noted in
Wick v. Spector, 562 So.2d 402 (Fla. 3d DCA 1990),
where Spector had filed a motion for rehearing, and
the Court said,
“This was in reality a motion for reconsideration which the trial court had the authority
in its discretion to consider because it retains
control of its own interlocutory orders prior
to the entry of final judgment.”
This is an entirely different type of motion for reconsideration. As to due process, the point was that the
trial court was explicitly denying an opportunity to
be heard for improper reasons, highly probative of
partiality, and violative of due process. The reconsideration hearing was held on February 22, 2017, with
another attorney representing Hart at the hearing;
prior thereto, the undersigned had filed a comprehensive proffer based on the undisputed facts going
through each of the orders under reconsideration.
After the hearing, the Court avoided discussion of
any of the issues by ruling however,
“A motion for reconsideration is directed to
a ‘non-final’ order and its sole purpose is to
call to the attention of the court any error,
omission, or oversight that may have been
committed during the hearing and/or the
preparation of the judge’s order. This Court
finds no such error, omission or oversight
has occurred and thus affirms and adopts
the Orders so entered.”
The use of the word “such” was erroneous since, in
fact, the Court could reconsider any order of the disqualified judge. The undersigned moved for clarifica-

31
tion, and, in the new order, the Court dropped the
final v. non-final issue, and stated that, “This Court
agrees with Judge Iten’s Orders and adopts said Orders
as its own.” Thus, exactly two judges in American
history have agreed a five minute delay in filing a
notice of appearance supports declaring the pleadings a nullity, and both are in this case. After the
first two orders were entered, the undersigned moved
the court to refer the issue of fraud on the court to
law enforcement, which the court denied, even before
the undersigned could advise it of Wells Fargo’s position on the matter, which it opposed.
WHERE DUE PROCESS WAS RAISED BELOW
Due process was raised at the trial by Hart, and
at the 5/6/16, hearing, and the 9/13/16, hearing on
the basis he had not been provided his discovery. The
undersigned raised due process in the 6/23/16 motion
for reconsideration in that the defendant was improperly denied an opportunity to be heard as to the Hart
motion, the amended motion for new trial which
alleged the loan was not funded and no prima facie
case had been made at trial, and, in fact, a judgment
entered for which a Phyllis Savage was the borrower,
rather than evidence related to this loan, supported
by an 11/2/16 additional memorandum, and a 2/20/17
proffer, in the summary of argument and argument
section of the initial brief, and responsively in the
reply brief, as well as the motion for rehearing/
rehearing en banc, and the stricken reply. At oral
argument, the focus of the merits panel was one of
fundamental fairness, resulting in the post oral argument stipulation, a motion to relinquish, motions for
rehearing/rehearing en banc, and the stricken reply

32
all dealing with due process. Rule 1.440 was discussed in the initial and reply briefs, and post oral
argument, in the motion for rehearing/rehearing en
banc, and in the stricken reply.

REASONS FOR GRANTING THE PETITION
1. Granting the petition will avoid a travesty of
justice as to Hart. In this case, it is undisputed that
Hart did not benefit to the extent of one penny. Not
only has a judgment been entered against him but he
is also facing the Regions Bank judgment which wasn’t
satisfied out of the proposed loan proceeds. Wells
Fargo defrauded the court with deceptive releases
and obtained a judgment completely devoid of any
evidentiary record to support the judgment. That is, no
competent, substantial evidence supports this judgment of foreclosure.
2. It will deter much of the abuse extant in
Florida foreclosure proceedings. There isn’t even a
pretense of impartiality in some of these actions nor
even a pretense of due process. The banks already
have an enormous financial advantage over the
defendants, but that’s not enough for them, with one
standard of due process for the banks and another
standard of due process for the rest. This case has a
series of firsts, first time a bank allowed direct
contact with a represented client, first time a five
minute delay is used to strike pleadings, first time a
judgment is entered with evidence in the record
related to undisclosed releases being highly probative
of fraud, and, first time a signed judgment based on

33
the “evidence presented” is entered without a
scintilla of such evidence in the record. Everyone is
banking on the fact that this Court takes so few
cases. As former Judge Altenbernd put it in Davis v.
State, 953 So.2d 612, 614 (Fla. 2d DCA 2007),
“Mr. Davis attempted to have the United
States Supreme Court review our affirmance. That Court does have the power, by
writ of certiorari, to review a decision from a
Florida District Court of Appeal even when
no written opinion is issued. That power is
very rarely exercised.”
In fact, at the hearing held on May 21, 2019, before
the current trial judge, as to the merits of a stay,
while the current trial judge agreed as to the likelihood of harm to Hart if the stay were not granted, as
to the likelihood of success on the merits, he noted
candidly that,
“As far as the likelihood of success on the
merits, I cannot find that Mr. Christian-Hart
has any appreciable likelihood of success,
and let me explain why. He has raised issues
that we talked about today, and we talked
about the last time we were in this hearing
on April 22, 2019, about the alleged violation of due process, and this issue has been
presented by multiple—to multiple judges of
the Twelfth Judicial Circuit and to the
Second District and presumably will be presented to the U.S. Supreme Court. The U.S.
Supreme Court hears a hundred cases a
year, nationwide. This, from the Second District, is a per curiam affirmed decision and

34
so the U.S. Supreme Court would not only
have to be interested, they would have to
get interested without a decision written by
an appellate court, and I just don’t see that
happening. And so I—realistically, you know,
Mr. Christian-Hart has the right to request
that the Supreme Court of the United States
review his case, I cannot conclude that there’s
any likelihood of success.”
However, this case is much more significant than as
to Hart individually. These evidentiary shortcuts may
hurt homeowners but once courts abide such shortcuts,
where will it end. The mills have now succeeded in
getting a judgment without record evidence. It won’t
end with foreclosures.

CONCLUSION
The Petition should be granted and summary
reversal may be appropriate.
Respectfully submitted,
STEVEN A. FOX

COUNSEL FOR PETITIONER

LAW OFFICE OF STEVEN A. FOX

4634 HIGEL AVE
SARASOTA, FL 34242
(941) 225-3676
STALANFOX@MSN.COM
JUNE 7, 2019

